       OFFICE OF

  INSPECTOR GENERAL



Semiannual Report to Congress

October 1, 2001 - March 31, 2002



    Federal Election Commission
     999 E Street, N.W., Suite 940
       Washington, DC 20463



            May 2002

                                   TABLE OF CONTENTS


        SUBJECT                                                                        PAGE


EXECUTIVE SUMMARY.......................................................                 1


FEDERAL ELECTION COMMISSION.................................                             8


SPECIAL PROJECTS.............................................................           11


INSPECTION REPORTS........................................................              15


INSPECTION FOLLOW-UP...................................................                 20


INVESTIGATIONS.................................................................         23


ADDITIONAL OFFICE OF INSPECTOR GENERAL

   ACTIVITY.........................................................................    25


ECIE AND PCIE ACTIVITY...................................................               31


REPORTING REQUIREMENTS............................................                      33


TABLE I - QUESTIONED COSTS..........................................                    34


TABLE II - FUNDS PUT TO BETTER USE...........................                           35


TABLE III - SUMMARY OF AUDIT REPORTS WITH

            CORRECTIVE ACTIONS OUTSTANDING

            FOR MORE THAN SIX MONTHS.....................                               36


FEC / OIG STRATEGIC PLAN................................................                37


CONTACTING THE OFFICE OF INSPECTOR

   GENERAL.........................................................................     38





October 1, 2001 - March 31, 2002
                               EXECUTIVE SUMMARY


        I am pleased to submit this semiannual report to Congress covering

the period October 1, 2001 through March 31, 2002. This report reflects our

efforts to remain in accordance with the requirements of the Inspector

General Act of 1978, as amended, and summarizes the major activities and

accomplishments of the Federal Election Commission (FEC), Office of

Inspector General (OIG). The Executive Summary provides a brief synopsis

of accomplishments and general activities as it relates to the Office of

Inspector General. Our accomplishments were made possible by the

dedicated efforts of a committed and professional staff.



        During this reporting period the Office of Inspector General completed

and released one special project report, one inspection report, and a follow-up

report on a previously released inspection. An inspection report and one

limited scope review was initiated.



        The first report released by the Office of Inspector General was a

special project report entitled FEC Retirement (OIG-01-09 - December,

2001). The purpose of conducting this special project was to provide an

analysis of the Commission’s projected employee retirements over the next

ten years.




October 1, 2001 - March 31, 2002                                             Page 1
        To obtain statistical data regarding the special project, the OIG

reviewed retirement statistics from the Office of Personnel Management and

the FEC’s Personnel Office and Data Systems Development Division

(DSDD). The data reviewed included current, five, seven, and ten year

retirement eligibility for FEC staff. The OIG also obtained from OPM

retirement projection figures which represent the expected future

retirements for the FEC staff based on statistical calculations using prior

FEC retirement trends and age profile of the FEC staff.



        The OIG concluded that the risk associated with losing substantial

numbers of employees to retirement is considerably less for the FEC than it

is for the Federal government as a whole. However, the OIG found the

potential loss of a large number of office heads over the next several years to

be noteworthy. As of September 2001, 21% of the 24 office heads were

eligible for regular retirement. At the end of calendar year 2006, 46% will be

eligible for retirement; 67% by the end of calendar year 2008. Additional

information regarding this project is located on page 11, the section entitled

Special Projects.



        The second report completed and released during this reporting period,

Inspection of the Commission’s Occupant Emergency Plan (OEP)

(OIG-01-10 - February, 2002), was performed to assess the Commission’s

emergency preparedness plan and program. An OEP is a facility’s short term


October 1, 2001 - March 31, 2002                                            Page 2
response program for safeguarding lives and property during emergencies.

Federal agency’s that occupy space in federally-owned or GSA-leased

facilities are required by Federal Property Management Regulations to

establish and maintain an OEP.



        The primary objectives of the inspection were to: 1) evaluate the

Commission’s OEP to determine whether the plan adequately meets all GSA

requirements; 2) determine whether the Commission’s OEP addresses the

special needs of the physically challenged; and 3) determine whether the

Commission’s OEP is effectively communicated to staff. The OIG offered five

suggestions to improve the Commission’s OEP and believes that

management’s planned and completed actions will provide Commission

employees the essential information needed to successfully evacuate the

building during emergency situations. To obtain more information, see the

section entitled Inspection Reports, located on page 15.



        Follow-up work on the inspection entitled, Inspection of the

Commission’s Westlaw Database Service (OIG-01-05 - July, 2001), was

conducted during this reporting period. The Westlaw service provides FEC

staff with on-line access to legal and business databases. The primary

reasons for conducting the initial inspection were to: 1) ensure that the

Westlaw accounts of separated staff are properly canceled; and 2) review




October 1, 2001 - March 31, 2002                                            Page 3
improper Westlaw financial payments to determine the cause and evaluate

the payment process.



        The purpose of conducting the follow-up was to determine whether

corrective action had been taken to address the one recommendation

contained in the original inspection report. The OIG concluded that

management has taken steps to implement a process to monitor the receipt

of goods and services to lessen the likelihood of duplicate payments to

vendors. The single recommendation contained in the inspection report was

closed. For more information on the follow-up work conducted, see the

Inspection Follow-up section on page 20.



        The OIG also initiated an inspection of the Federal Election

Commission’s subscription / publication services (Inspection of the

Commission’s Subscription / Publication Services - OIG-02-01) during

this semiannual period. The purpose of conducting the inspection is to: 1)

assess the adequacy of the level of funds expended for various publications;

and 2) determine whether the current publication budget and expenditures

accurately reflects the usage of these publications and whether or not these

publications meet the needs of the Commission. Additional information

regarding this inspection can be found on page 18, the Inspection Reports

section.




October 1, 2001 - March 31, 2002                                          Page 4
        Prior to the end of this reporting period, a review of the Commission’s

security cameras and building security was initiated (Limited Scope

Building Security Review - OIG-02-02). The purpose of the review is to

assess the effectiveness of the building security cameras and address the

building security issues that arose concerning the theft of a laptop computer.

Meetings have been held to discuss the issues surrounding the Commission’s

security camera recording system and the cameras were also reviewed to

assess the quality of images provided by the cameras. Specific information

regarding the limited scope review is located in the section entitled Special

Projects, which is located on page 14.



        The OIG provided assistance to the Federal Protective Service (FPS) in

conducting an investigation involving the theft of Government property. An

FEC laptop computer and carrying case was stolen from one of the divisions.

The FEC reported the value of the laptop to be $3,000. For further details,

refer to the section entitled Investigations, found on page 23.



        Listed below are highlights of additional activities conducted by the

Office of Inspector General during this reporting period. Items are described

in greater detail, starting on page 25, the section entitled Additional Office

of Inspector General Activity.




October 1, 2001 - March 31, 2002                                            Page 5
        • 	 The OIG responded to a request from Senator Charles E. Grassley,

             regarding the SmartPay program and the misuse of government

             charge cards. The Senator expressed concerns regarding the

             program’s effectiveness, as well as any fraud and misuse pertaining

             to the government charge cards. One of the Senator’s biggest

             concerns was whether the agencies have adequate controls in place

             to ensure the honest use of government accounts and charge cards.

             Particularly troubling were reports of the government paying for

             employees’ personal expenses because of unauthorized use of

             government charge cards.



             Several steps were taken by the OIG to address the concerns

             contained in the request. The OIG prepared and submitted the

             response to Senator Grassley on October 16, 2002. For detailed

             information pertaining to the FEC OIG reply to this request, see

             page 25.




        • 	 The OIG responded to a request from a Special Agent of the Small

             Business Administration (SBA) Office of Inspector General (OIG)

             seeking information on a former FEC contractor. The SBA OIG

             received an allegation that the contractor misrepresented itself and

             received government contracts based on that misrepresentation.




October 1, 2001 - March 31, 2002                                            Page 6
             Additional information, as it relates to the previous FEC contractor,

             can be retrieved from page 28.




October 1, 2001 - March 31, 2002                                             Page 7

                    THE FEDERAL ELECTION COMMISSION


        The Federal Election Commission (FEC) is an independent, regulatory

agency responsible for administering and implementing the Federal Election

Campaign Act (FECA). The FEC is composed of six Commissioners who are

appointed for six year terms by the President of the United States, with the

advice and consent of the Senate. The FECA likewise established the

positions of Staff Director and General Counsel, who are appointed by the

Commissioners.



        Prior to the end of this semiannual reporting period, a new

Commissioner, Michael E. Toner, was appointed to the Commission.

Commissioner Toner was sworn in on April 1, 2002, and replaces

Commissioner Darryl R. Wold, whose term expired last April.




                     OFFICE OF INSPECTOR GENERAL


        The Federal Election Commission is one of the thirty-three designated

agencies required to have an Inspector General under the 1988 amendments

to the Inspector General Act of 1978 (P.L. 100-504).




October 1, 2001 - March 31, 2002                                         Page 8
        The responsibilities of the Inspector General as stated in P.L. 100-504

are as follows:

                 • 	 conduct and supervise audits and investigations relating to

                      the Federal Election Commission’s programs and operations;



                 • 	 provide leadership, coordination, and to recommend policies

                      for activities designed to promote economy, efficiency and

                      effectiveness in the administration of Commission programs

                      and operations. To prevent and detect fraud, waste and

                      abuse in these programs and operations, and;



                 • 	 keep the Commissioners and Congress fully and currently

                      informed about problems and deficiencies and the need for

                      and progress of corrective actions.



        The OIG is under the supervision of the Inspector General who

provides overall direction to the staff. The OIG staffing level for FY 2002 is

four (4) full time employees. The staff consists of the Inspector General, the

Special Assistant to the Inspector General and two Senior Auditors. Since

FY’01, the OIG has requested funds to contract out for audit services. One of

the benefits of using a contract audit firm would be to conduct more

specialized audits, especially in the IT area where the staff expertise may not




October 1, 2001 - March 31, 2002                                               Page 9
be sufficient. Through this fiscal year, we have not been allotted any

contract funds. The OIG again renewed this request for FY’03.




October 1, 2001 - March 31, 2002                                         Page 10

                                     SPECIAL PROJECTS


TITLE:                             FEC Retirement


ASSIGNMENT #:                      OIG - 01-09


RELEASE DATE:                      December, 2001


WEBSITE ADDRESS:                   http://www.fec.gov/fecig/retire.pdf


PURPOSE:                           The purpose of conducting this special project was


to provide an analysis of the Federal Election Commission’s (FEC) projected


employee retirements over the next ten years.



        Studies conducted by government oversight agencies such as the

General Accounting Office (GAO) and the Office of Personnel Management

(OPM) have predicted a potentially gloomy retirement scenario for the

Federal government. This problem could significantly impact the Federal

government’s ability to manage its tasks and programs due to the possibility

of large numbers of employees that may retire over a relatively short period

of time.



        The OIG reviewed retirement statistics obtained from OPM, the FEC’s

Personnel Office, and Data Systems Development Division (DSDD). The

data reviewed included current, five, seven, and ten year retirement




October 1, 2001 - March 31, 2002                                                 Page 11
Special Projects (continued)




eligibility for FEC staff. The OIG also obtained from OPM retirement

projection figures which represent the expected future retirements for the

FEC staff based on statistical calculations using prior FEC retirement trends

and age profile of the FEC staff.



        The retirement data reviewed included only regular retirement, not

early retirement. Employees are generally able to voluntarily retire (regular

retirement) under the Civil Service Retirement System (CSRS) and the

Federal Employees Retirement System (FERS) provided they meet one of the

following scenarios: 1) are 55-59 years of age and have 30 or more years of

service; 2) are 60-61 years of age and have 20 or more years of service; or 3)

are 62 years of age and have 5 or more years of service.



        The OIG concluded that the risk associated with losing substantial

numbers of employees to retirement is considerably less for the FEC than it

is for the Federal government as a whole. However, the OIG found the

potential loss of a large number of office heads over the next several years to

be noteworthy. As of September 2001, 21% of the 24 office heads were

eligible for regular retirement. At the end of calendar year 2006, 46% will be

eligible for retirement; 67% by the end of calendar year 2008.




October 1, 2001 - March 31, 2002                                          Page 12
Special Projects (continued)



        The OIG believes the problem of the potential retirement of senior

management over the next several years would benefit by incorporating

human resources goals in future GPRA performance plans to ensure the FEC

is successful in meeting its mission. The strategic planning requirements of

the Government Performance and Results Act (GPRA) provide a useful

framework for the FEC to integrate their human capital strategies with their

strategic and programmatic planning - to identify the workforce size and

skills mix needed for mission accomplishment and to create strategies to fill

the gaps.




October 1, 2001 - March 31, 2002                                         Page 13
Special Projects (continued)



TITLE:                             Limited Scope Building Security Review


ASSIGNMENT #:                      OIG - 02-02


RELEASE DATE:                      In Progress


PURPOSE:                           The primary reason for conducting this limited


scope building security review is to assess the effectiveness of the building


security cameras and address the building security issues that arose


concerning the theft of a laptop computer.




        Up to this point, specific steps taken to perform the review include

conducting meetings with the Commission’s Printing Officer, who is

responsible for the FEC’s security camera recording system, and the

Administrative Officer at which time the issues surrounding the recording

system were discussed.



        The OIG also reviewed the Federal Protective Service’s recently

completed building security assessment of the 999 E Street location. A video

tape recording from the FEC’s security cameras was also reviewed to assess

the quality of images provided by the security cameras. Future meetings are

scheduled to discuss additional issues. The OIG anticipates completing this

review during the next reporting period.


October 1, 2001 - March 31, 2002                                                Page 14
                               INSPECTION REPORTS


TITLE:                             Inspection of the Commission’s Occupant
                                   Emergency Plan (OEP)


ASSIGNMENT #:                      OIG - 01-10

RELEASE DATE:                      February, 2002

WEBSITE ADDRESS:                   http://www.fec.gov/fecig/oep.pdf

PURPOSE:                           Due to the recent terrorist attacks, Federal

Agencies have been forced to address new issues regarding workplace safety

and emergency preparedness. Therefore, the Office of Inspector General

conducted the inspection of the FEC’s OEP to assess the Commission’s

emergency preparedness plan and program. An OEP is a facility’s short term

response program for safeguarding lives and property during emergencies.

Federal agency’s that occupy space in federally-owned or GSA-leased

facilities are required by Federal Property Management Regulations to

establish and maintain an OEP.



        The primary objectives of the inspection were to: 1) evaluate the

Commission’s OEP to determine whether the plan adequately meets all GSA

requirements; 2) determine whether the Commission’s OEP addresses the

special needs of the physically challenged; and 3) determine whether the

Commission’s OEP is effectively communicated to staff. The scope of the



October 1, 2001 - March 31, 2002                                                  Page 15
Inspection Reports (continued)



inspection focused on evaluating the Commission’s efforts to properly develop

an emergency preparedness plan that can reduce threats to personnel safety,

property, and other assets.



        To complete the inspection, various documents were reviewed, such as

the FEC’s Occupant Emergency Plan, and applicable federal regulations and

laws. An inspection guide was developed and a survey questionnaire was also

developed to measure employees’ knowledge of emergency procedures and

practices at the Commission. Additional steps taken by the auditor involved

contacting officials from other agency’s to obtain information as it pertains to

their emergency plan development, recent policies and procedural changes,

and employee evacuation training. Certain sections of the FEC’s OEP were

also examined to determine whether the special needs of the physically

challenged employees were addressed.



        We found that the Commission’s emergency plan generally satisfied

GSA’s requirements. However, we identified several inadequacies in the

Commission’s OEP which, if taken as a whole, could have a negative impact

on the FEC’s emergency response program. Although the inspection report




October 1, 2001 - March 31, 2002                                          Page 16
Inspection Reports (continued)



contained no specific recommendations, the OIG made the following

suggestions to improve the Commission’s Occupant Emergency Plan: 1)

utilize the GSA checklist to ensure compliance with federal regulations; 2)

conduct a debriefing or “lessons learned” session with the members of the

Occupant Emergency Organization after each evacuation drill and ensure

that evacuation test results are documented; 3) assign monitors to the lobby

area to assist staff as they exit the building during emergency evacuations

and ensure that Commission employees utilize all lobby doors during

evacuations; 4) develop a formal process to update, test, and approve the

OEP, as well as, amend Commission Directive 40 to include the requirement

to update the OEP periodically; and 5) continue to examine and evaluate

building security (i.e. the way the agency controls movement in / out and

around the building).



        The OIG discussed the suggestions with management and they agreed

to implement actions to satisfy most of our suggestions. Management’s

proactive approach to improving the Commission’s emergency preparedness

program should be commended. In addition, the OIG believes that

management’s planned and completed actions will strengthen the agency’s

emergency program.




October 1, 2001 - March 31, 2002                                        Page 17
Inspection Reports (continued)




TITLE:                             Inspection of the Commission’s
                                   Subscription / Publication Services


ASSIGNMENT #:                      OIG - 02-01

RELEASE DATE:                      In Progress

PURPOSE:                           During this reporting period, the OIG initiated an

inspection of the Commission’s subscription / publication services. The

purpose of conducting the inspection is to: 1) assess the adequacy of the level

of funds expended for various publications; and 2) determine whether the

current publication budget and expenditures accurately reflects the usage of

these publications and whether or not these publications meet the needs of

the Commission.



        During the preparatory stages of the inspection, the OIG completed a

comparative analysis of prior year subscription budget information. FEC

policies, directives, and budget execution reports were analyzed to obtain

information relevant to the procurement of subscriptions. In order to

familiarize the OIG with the process of renewing publications and the

various forms used to request publications, procurement requests and

purchase orders for subscriptions were inspected.




October 1, 2001 - March 31, 2002                                                 Page 18
Inspection Reports (continued)



        Additional steps taken also included analyzing the FY 2002

Management Plan to compare publication and publication service usage

within the FEC. The inspection guide has been developed using information

obtained through interviews with Commission personnel, as well as data

obtained during the preliminary stages of the inspection. The OIG

anticipates completing the inspection prior to the next semiannual reporting

period.




October 1, 2001 - March 31, 2002                                       Page 19
                             INSPECTION FOLLOW-UP


TITLE:                             Inspection of the Commission’s
                                   Westlaw Database Service


ASSIGNMENT #:                      OIG - 01-05

RELEASE DATE:                      July, 2001
(inspection report)

WEBSITE ADDRESS:                   http://www.fec.gov/fecig/westlaw.pdf

PURPOSE:                           The purpose of conducting this inspection follow-up

was to determine whether corrective action had been taken to address the

one recommendation contained in the original inspection report. The

Westlaw service provides Commission employees with on-line access to legal

and business databases. The primary objectives of the original inspection

were performed to: 1) ensure that the Westlaw accounts of separated staff

are properly canceled; and 2) review improper Westlaw financial payments to

determine the cause and evaluate the payment process.



        During the initial inspection, the OIG discovered a pattern of duplicate

payments made to the Westlaw vendor. Based on a review of Westlaw

payments and supporting documentation, the OIG found four duplicate

payments had been made in three of the four fiscal years reviewed (1998,




October 1, 2001 - March 31, 2002                                                 Page 20
Inspection Follow-up (continued)



1999, and 2001). A fifth invoice in FY 2001 was improperly approved for

payment by the Library Office, but did not obtain the necessary approval for

payment by the Administrative Officer, therefore the invoice was not paid.

All duplicate payments were recovered from the vendor and were deemed as

errors and not the result of fraud or abuse. The OIG recommended that the

Library office develop an adequate system, in consultation with the

Accounting Office, to monitor open purchase orders. For example, a

computer spreadsheet could be developed to monitor open purchase orders,

including obligations of funds, and partial / final receipt of goods or services.



        The OIG met with the Library Director and spoke with the Library

Technician to discuss a process implemented by the Library Office to monitor

the receipt and authorization for payment of goods and services. The OIG

inspected the Library Office’s “Receiving Report Log” which is used when the

Library Office signs-off on a receiving report for the receipt of goods or

services. In order for the Accounting Office to pay a vendor, receiving

reports must be completed by the requisitioning office acknowledging the

receipt of goods or services. The “Receiving Report Log” is intended to

provide the Library Office with a record of receiving reports previously

approved to prevent the approval of duplicate receiving reports.




October 1, 2001 - March 31, 2002                                             Page 21
Inspection Follow-up (continued)



        The OIG concluded the Library Office satisfactorily implemented a

process to monitor the receipt of goods or services to lessen the likelihood of

duplicate payments to vendors. Therefore, the OIG closed the one

recommendation contained in the initial inspection report.




October 1, 2001 - March 31, 2002                                           Page 22
                                   INVESTIGATIONS


        No new investigations were opened during this reporting period.

However, the OIG provided assistance to the Federal Protective Service

(FPS) with regards to an investigation into the theft of Government

property.



        A laptop computer and carrying case was stolen from the FEC. The

theft was immediately reported to the General Services Administration’s

Federal Protective Service. A special agent from the FPS’ Criminal

Investigations Section, along with the FEC OIG, investigated the theft. The

FEC reported the value of the laptop computer at $3,000.



        The FEC’s security camera recording was reviewed and a suspicious

male was identified entering the building immediately before the time of the

theft. Photographs were produced from the security camera recording by the

Administrative Office. The FPS special agent provided a photograph of the

suspicious male to local police precincts to determine whether the male is

known to be involved in thefts in the area. The FPS special agent also

contacted local pawn shops to determine whether the laptop had turned up.

No leads arose from the local police or pawn shops.




October 1, 2001 - March 31, 2002                                          Page 23
Investigations (continued)



        FEC employees who reported seeing the suspicious male in the

building were identified and interviewed by the OIG and FPS Special Agent.

The FEC security officers and the parking garage attendant on duty at the

time of the theft were also interviewed. The interviews did not result in any

leads. More than a month after the theft, the OIG contacted the FPS special

agent to determine whether any leads on the theft had occurred. The

investigator stated there was no additional information pertaining to the

case. The OIG concluded it is unlikely the FEC laptop computer will be

located.




October 1, 2001 - March 31, 2002                                         Page 24
      ADDITIONAL OFFICE OF INSPECTOR GENERAL ACTIVITY


        All legislation, as compiled by the Commission’s Congressional Affairs

Office, was reviewed by the Inspector General, as required by the Inspector

General Act of 1978, as amended. The Inspector General reviews and

comments, when appropriate, on all legislation provided by the PCIE

Legislative Committee. In addition, the Inspector General routinely reads all

Commission agenda items and attends Finance Committee meetings.



        • 	 Taking into account recent revelations regarding the misuse of

             government charge cards, the OIG responded to a request from

             Senator Charles E. Grassley who expressed concerns relevant to

             the SmartPay program and the misuse of government charge cards.

             The Senator was interested in the program’s effectiveness, as well

             as any fraud and misuse pertaining to the government charge

             cards. However, one of his biggest concerns was whether the

             agencies have adequate controls in place to ensure the honest use of

             government accounts and charge cards. Particularly troubling to

             the Senator were reports of the government paying for employees’

             personal expenses because of unauthorized use of government

             charge cards.




October 1, 2001 - March 31, 2002                                           Page 25
             The Senator wanted to know about the IG’s evaluative experience

             with the SmartPay program. He requested we provide the

             following: 1) any information regarding instances of employees

             who have been investigated and disciplined for misusing their

             government purchase and travel cards, including a full description

             of each instance of misuse / abuse and the resulting disciplinary

             action; 2) details of audits and investigations conducted by the

             Commission regarding the use of SmartPay accounts, along with

             copies of any reports that have been written as a result of such

             activities; 3) details of audits and investigations the Commission

             plans to conduct regarding the use of SmartPay accounts; and 4)

             any recommendations the Commission has for correcting program

             weaknesses.



             To address the concerns of the Senator, the OIG contacted the

             FEC’s Administrative Officer, who also serves as the program

             manager of the SmartPay card, to determine whether or not any

             employees had misused / abused a government purchase and travel

             card. According to the Administrative Officer, there have been a

             few instances that employees have reported that they had

             mistakenly taken out their travel charge card instead of their

             personal charge card and used the card for a personal transaction.

             When the employee realized their mistake, they called the



October 1, 2001 - March 31, 2002                                                Page 26
             Administrative Office and reported the error and paid for the

             personal charges when the bill arrived. No disciplinary action was

             necessary.



             The Senator requested details of any audits or investigations that

             were conducted with regards to the use of SmartPay accounts,

             along with copies of any reports written by the OIG as a result of

             such activities. Our efforts to address this request included

             reviewing an audit that was conducted in 1996 entitled Review of

             Commission Travel (OIG-96-02). During the initial review in 1996,

             the American Express (AMEX) charge card activity statement was

             reviewed to ensure charge cards were used for authorized purposes

             only.



             The Senator also requested details of audits and investigations the

             OIG plans to conduct regarding the use of SmartPay accounts and

             any recommendations the OIG has for correcting program

             weaknesses. The OIG’s FY’02 audit plan does not currently include

             a planned audit, inspection or investigation of the SmartPay

             accounts. However, the OIG anticipates conducting a review of the

             SmartPay accounts in a future fiscal year. To correct program

             weaknesses, the OIG offered the following recommendations to the

             Senator: 1) users of the cards must be adequately trained on the


October 1, 2001 - March 31, 2002                                             Page 27
             rules and procedures governing the use of the cards; 2) program

             managers should thoroughly review the card billing statements to

             ensure only authorized transactions have occurred; and 3)

             unauthorized charges should be reviewed and reported to the OIG

             for a determination of the cause and effect of the unauthorized use

             of the SmartPay cards. On October 16, 2002, the OIG prepared

             and submitted the response. Senator Grassley expressed his

             appreciation for our efforts in helping to eliminate waste and the

             fraudulent use of government accounts.



        • 	 The OIG received and responded to a request from a Special Agent

             (SA) of the Small Business Administration (SBA), Office of

             Inspector General, seeking information on a former FEC

             contractor. The SBA OIG received an allegation that the

             contractor misrepresented itself and possibly received government

             contracts based on that misrepresentation. To determine which

             Federal agencies had contracted with that particular contractor,

             the SA contacted the GSA’s Federal Procurement Data System

             (FPDS). According to reports obtained from the FPDS, the FEC

             was one of two agencies that had contracts with the contractor in

             question.




October 1, 2001 - March 31, 2002                                            Page 28
             The OIG attended a meeting with the Special Agent and those

             representing the FEC Data Systems Development Division, to

             discuss the possibility of a preliminary investigation. During that

             meeting, the OIG was provided with a printout of contract awards.

             The OIG contacted the FEC Accounting and Administrative

             Officers to verify whether the contracts received were valid, and to

             ascertain if the contractor received the contracts based on the

             alleged misrepresentation. The OIG received information from the

             Data Systems Development Division regarding the contractor and

             their association with the FEC. We also received several

             procurement documents from the Accounting and Administrative

             Officers. All documents were photocopied and forwarded to the

             Special Agent. Shortly thereafter, the OIG was notified by the

             Special Agent that the SBA OIG has decided not to open a case on

             the contractor.



        •    During the course of this reporting period, the OIG developed and

             began using two new forms. The first form entitled Program

             Manager’s Evaluation of OIG Audit, was designed to obtain the

             program manager’s feedback regarding their recently completed

             OIG audit. The OIG ask the program manager to answer seven

             questions and rate them on a scale of 1-5. One of the OIG’s

             objectives is to find out, after the final report has been issued, how


October 1, 2001 - March 31, 2002                                               Page 29
             satisfied the program manager is with their experience with the

             OIG staff and the audit process. The second form entitled Program

             Manager’s Decisions of Audit Report Recommendations, was

             developed to provide the program manager with a concise format

             reflecting the recommendations contained within the final report.

             The form also provides the manager with a space to express

             agreement / disagreement with the recommendations and to

             provide the OIG with the actual / estimated date the manager

             expects the recommendations to be implemented. The OIG intends

             to use these forms to improve the quality of our work.




October 1, 2001 - March 31, 2002                                            Page 30
                             ECIE AND PCIE ACTIVITY


        The Executive Council on Integrity and Efficiency was established by

Executive Order on May 11, 1992. It consists of Designated Federal Entity

Inspectors General and representatives of the Office of Government Ethics,

the Office of Special Counsel, the Federal Bureau of Investigation and the

Office of Management and Budget.



        The Inspector General is a member of the Executive Council on

Integrity and Efficiency and continues to remain active in various issues

impacting the OIG community. The Inspector General (or staff) attended the

following training, programs and/or conferences during this reporting period:



        •    ECIE - Monthly Meetings

        •    ECIE - Liaison Meetings

        •    PCIE / ECIE - Joint Quarterly Meeting

        •    PCIE / ECIE - Awards Ceremony

        • 	 PCIE / ECIE - Government Performance and Results Act (GPRA)
            Interest Group Roundtable Discussion

        • 	 PCIE / ECIE - Professional Development Forum of 2002, Whistle
            Blower Reprisal Forum

        •    Federal Election Commission - Administrative Liaison Meetings

        • 	 Federal Election Commission - Emergency Evacuation Procedures
            Meeting

        •    PeopleSoft University - Introduction to Financials & Distribution

October 1, 2001 - March 31, 2002                                          Page 31
        • 	 Government Information Security Reform Act (GISRA) - Best
            Practices / Lessons Learned Conference

        • 	 Inspector General Auditor Training Institute (IGATI) - Fraud
            Auditing: Theory and Awareness

        • 	 National Businesswomen’s Leadership Association - 2002
            Conference for Women




October 1, 2001 - March 31, 2002                                           Page 32
IG ACT                    REPORTING REQUIREMENTS                                         PAGE


Reporting requirements required by the Inspector General Act of 1978, as amended by
the Inspector General Act Amendments of 1988 are listed below:


Section 4(a)(2)           Review of Legislation-----------------------------------------------25

Section 5(a)(1)	          Significant Problems, Abuses, and
                          Deficiencies---------------------------------------------------------None

Section 5(a)(2)	          Recommendations with Respect to
                          Significant Problems, Abuses, and
                          Deficiencies---------------------------------------------------------None

Section 5(a)(3)	          Recommendations Included in Previous
                          Reports on Which Corrective Action Has
                          Not Been Completed-----------------------------------------------36

Section 5(a)(4)	          Matters Referred to Prosecutive
                          Authorities---------------------------------------------------------None

Section 5(a)(5)	          Summary of Instances Where Information
                          was Refused-------------------------------------------------------None

Section 5(a)(7)           Summary of Significant Reports-------------------------------15

Section 5(a)(8)           Questioned and Unsupported Costs---------------------------34

Section 5(a)(9)	          Recommendations that Funds be put
                          to Better Use---------------------------------------------------------35

Section 5(a)(10)	         Summary of Audit Reports issued before
                          the start of the Reporting Period for which
                          no Management Decision has been made----------------N/A

Section 5(a)(11)          Significant revised Management Decisions-------------N/A

Section 5(a)(12)	         Management Decisions with which the
                          Inspector General is in Disagreement-------------------None




October 1, 2001 - March 31, 2002                                                                      Page 33
                                          TABLE I

                       INSPECTOR GENERAL ISSUED REPORTS
                             WITH QUESTIONED COSTS


                                                    DOLLAR VALUE (in thousands)

                                                    QUESTIONED    UNSUPPORTED
                                         NUMBER        COSTS         COSTS




A. 	 For which no management               0             0              [0]
     decision has been made by
     commencement of the reporting
     period


B. Which were issued during the            0             0              [0]
   reporting period

        Sub-Totals (A&B)                   0             0              [0]


C. 	 For which a management                0             0              [0]
     decision was made during
     the reporting period

        (i) Dollar value of disallowed     0             0              [0]
            costs

        (ii) Dollar value of costs         0             0              [0]
             not disallowed


D. 	 For which no management               0             0              [0]
     decision has been made by the
     end of the reporting period


E. 	 Reports for which no management       0             0              [0]
     decision was made within
     six months of issuance




October 1, 2001 - March 31, 2002                                              Page 34
                                          TABLE II

             INSPECTOR GENERAL ISSUED REPORTS WITH
        RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE



                                              NUMBER   DOLLAR VALUE
                                                        (in thousands



A.	     For which no management                 0            0
        decision has been made by
        the commencement of the
        reporting period

B. 	    Which were issued during                0            0
        the reporting period

C.	     For which a management                  0            0
        decision was made during
        the reporting period

        (i) 	    dollar value of                0            0
                 recommendations
                 were agreed to by
                 management

                 based on proposed              0            0
                 management action

                 based on proposed              0            0
                 legislative action

        (ii) 	   dollar value of                0            0
                 recommendations
                 that were not agreed
                 to by management

D. 	    For which no management                 0            0
        decision has been made by
        the end of the reporting period

E. 	    Reports for which no                    0            0
        management decision
        was made within six months
        of issuance




October 1, 2001 - March 31, 2002                                    Page 35
                                            TABLE III

           SUMMARY OF AUDIT REPORTS WITH CORRECTIVE ACTIONS
                OUTSTANDING FOR MORE THAN SIX MONTHS




                                                          Recommendations
                                   Report       Issue
  Report Title                     Number       Date    Number   Closed   Open

Agency Controls                    00-01        09/00     7         3       4

Governing the Process

for Procurement of Vendor

Training Services





October 1, 2001 - March 31, 2002                                          Page 36

                                                                        FEC / OIG Strategic Plan
                                                           OIG Process: To develop and implement                            OIG Staff: To maintain a skilled and motivated
 OIG Products: To provide products and
                                                           processes, policies, and procedures to ensure                    work force in an environment that fosters
 services that promote positive change in
                                                           the most effective and appropriate use of OIG                    accountability, communications, teamwork, and
 FEC policies, programs, and operations.
                                                           resources in support of our people and products.                 personal and professional growth.


 Objective A: Deliver timely, high-quality                                                                                  Objective A: Attract and retain well-qualified,
 products and services that promote                                                                                         diverse and motivated employees.
 positive change.                                            Objective A: Maintain a dynamic strategic
                                                             planning process.                                              Strategy:
                                                                                                                            - develop and implement a comprehensive recruiting program
 Strategy:                                                                                                                  that attracts a broad population with the knowledge, skills,
 - establish common OIG standards for communicating          Strategy:
                                                                                                                            abilities, and expertise necessary to make meaningful
 results;                                                    - periodically review and update the strategic plan to
                                                                                                                            contributions to the OIG;
 - conduct quality assurance programs;                       address changing OIG and FEC priorities; and,
                                                                                                                            - assess employee satisfaction and develop strategies to address
 - solicit appropriate internal and external review and      - identify factors that influence organizational change and
                                                                                                                            employee concerns;
 comment;                                                    develop short and long term plans to address them.
                                                                                                                            - identify reasons for staff departures and develop plans to foster
 - comply with applicable statutory guidelines and                                                                          greater staff retention; and,
 standards;                                                                                                                 - adhere to EEO principles and strive to maintain a diverse work
 - set realistic and appropriate milestones.                                                                                force.

 Objective B: Address priority issues and
 concerns of the Commission, Congress,
                                                             Objective B: Plan and conduct cost-
 and Management.
                                                             effective work that address critical issues                    Objective B: Provide training and developmental
 Strategy:      Perform work that supports;                  and results in positive change.                                opportunities to employees.
 - Federal Election Commission and Congressional
 priorities;                                                 Strategy:                                                      Strategy:
 - National Performance Review objectives;                   - solicit FEC and Congressional input in planning OIG          - assess training needs in relation not only to employee but also
 - Strategic Management Initiative efforts;                  activities;                                                    office needs as well;
                                                             - develop internal planning mechanisms to support FEC          - ensure that Government Auditing Standards in relation to
 Focus OIG attention in the following areas of emphasis:     goals and priorities;                                          training are adhered to; and,
 - managing change;                                          - ensure that priorities of IG are effectively communicated;   - maintain a reporting system to ensure that educational
 - resource allocation in relation to policy objectives;     and,                                                           requirements are met.
 - delivery of client service;                               - identify specific targets for OIG review that are the most
 - causes of fraud and inefficiency; and,                    cost-effective
 - automation and communication.



                                                             Objective C: Identify customer needs and
                                                             provide products and services to meet
 Objective C: Follow-up and evaluate                         them.                                                          Objective C: Assess, recognize, and reward,
 results of OIG products and services to                                                                                    when possible, performance that contributes to
 assess their effectiveness in promoting                     Strategy:                                                      achieving the OIG mission.
 positive change.                                            - establish new customer feed back mechanisms;
                                                             - consider and evaluate customers feedback when
                                                                                                                            Strategy:
                                                             planning and developing products and services;
 Strategy:                                                   - respond to Congressional inquires and request for
                                                                                                                            - develop and articulate expectations for each employee's
 - Identify, as appropriate, lessons learned to improve                                                                     performance, including contributions in meeting the mission &
                                                             briefing and testimony;
 timeliness and quality; and,                                                                                               goals of the OIG; and,
                                                             - promote open exchange of ideas and information through
 - conduct follow-up reviews to determine if intended                                                                       - ensure that rewards, when possible, are given in recognition of
                                                             outreach and through use of e-mail; and,
 results have been achieved.                                                                                                exceptional employee performance.
                                                             - receive, evaluate, and respond, as appropriate, to
                                                             information received through the OIG hotline and other
                                                             sources.


 Objective D: Satisfy customers,                             Objective D: Implement efficient, effective,
 consistent with the independent nature of                                                                                  Objective D: Create and maintain a working
                                                             and consistent resolution and follow-up                        environment that promotes teamwork and
 the OIG.                                                    procedures.                                                    effective communication.
 Strategy:                                                   Strategy:
 - establish professional communication and interaction                                                                     Strategy:
                                                             - ensure that IG follow-up procedures are followed and that
 with customers to promote the open exchange of ideas;                                                                      - ensure that communications between employees is open; and,
                                                             management is aware of their role in the process; and,
 - incorporate customer feedback, as appropriate; and,                                                                      - provide employees with the tools and incentives they need to
                                                             - establish common OIG standards for terminology, date
 - be open to customer-generated solutions and                                                                              adequately perform their duties.
                                                             maintenance and communications.
 options.


                                                             Objective E: Establish a positive and
                                                             productive working environment.

                                                             Strategy:
                                                             - reengineer or streamline OIG procedures to achieve the
                                                             most effective use of resources; and,
                                                             - ensure that necessary technologies, evolving and
                                                             otherwise, are made available to staff as needed.



 Performance Measures: Determine the
 timeliness and quality of products and                      Performance Measures: An annual audit                          Performance Measures: All employees meet
 services; their effectiveness in promoting                  plan is issued; strategic plan is periodically                 the training requirements; all employees have
 positive change; and, reach agreement                       reviewed; and, necessary technology is                         performance standards; and, all employees meet
 with management on at least 90% of                          provided to staff to enable them to most                       the basic requirements for the position in which
 recommendations within six months of                        efficiently perform their duties.                              they were hired to perform.
 the report issue date.




October 1, 2001 - March 31, 2002                                                                                                                                                        Page 37
         CONTACTING THE OFFICE OF INSPECTOR GENERAL

The success of the OIG mission to prevent fraud, waste, and abuse depends
on the cooperation of FEC employees (and the public). There are several
ways to report questionable activity.




        Call us at 202-694-1015 or toll-free 1-800-424-9530. A confidential or
        anonymous message can be left 24 hours a day / 7 days a week.




        Write or visit us - we are located at:	    Federal Election Commission
                                                   Office of Inspector General
                                                   999 E Street, N.W., Suite 940
                                                   Washington, DC 20463

                            Mail is opened by OIG staff members only.




                           You can also contact us by e-mail at: oig@fec.gov.
                           Our Website address: http://www.fec.gov/fecig.htm.


Individuals may be subject to disciplinary or criminal action for knowingly
making a false complaint or providing false information.




October 1, 2001 - March 31, 2002                                              Page 38
